     Department of Homeland Security

     ��������������������������



  Idaho’s Management of Homeland Security Grant 

Program Awards For Fiscal Years 2010 Through 2012





OIG-14-61                                April 2014

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      APR 3 2014


MEMORANDUM FOR:	             Brian E. Kamoie
                             Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:	                       Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:	                    Idaho’s Management of Homeland Security Grant Program
                             Awards For Fiscal Years 2010 Through 2012

Attached for your information is our final report, Idaho’s Management of Homeland
Security Grant Program Awards For Fiscal Years 2010 Through 2012. We incorporated
the formal comments from the Federal Emergency Management Agency Grant
Programs Directorate and the Idaho Bureau of Homeland Security in the final report.

The report contains four recommendations aimed at improving the State of Idaho’s
management of Homeland Security Grant Program awards. Your office concurred with
all four recommendations. Based on information provided in your response to the draft
report, OIG considers recommendations #1, #2, and #4 unresolved and open. As
prescribed by the Department of Homeland Security Directive 077-01, Follow-up and
Resolution for Office of Inspector General Report Recommendations, within 90 days of
the date of this memorandum, please provide our office with a written response that
includes your (1) agreement or disagreement, (2) corrective action plan, and (3) target
completion date for each recommendation. Also, please include information on
responsible parties and any other supporting documentation necessary to inform us
about the current status of the recommendation.

OIG considers recommendation #3 resolved and open. Once your office has fully
implemented the recommendations, please submit a formal closeout letter to us within
30 days so that we may close the recommendation(s). The memorandum should be
accompanied by evidence of completion of agreed-upon corrective actions and of the
disposition of any monetary amounts.

Please email a signed PDF copy of all responses and closeout requests to
OIGAuditsFollowup@oig.dhs.gov.
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Consistent with our responsibility under the Inspector General Act, we will provide
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
   Assistant Inspector General for Audits, at (202) 254-4100.

   Attachment




www.oig.dhs.gov                               2                                      OIG-14-61
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1


   Background ......................................................................................................................... 2


   Results of Audit ................................................................................................................... 3


              Grant Oversight ...................................................................................................... 3

              Recommendations ................................................................................................. 7

              Management Comments and OIG Analysis ........................................................... 7


              Measuring Preparedness Improvements ............................................................. 10

              Recommendation ................................................................................................. 11

              Management Comments and OIG Analysis .......................................................... 11


              Timely Obligation of Funds ................................................................................... 12

              Recommendation ................................................................................................. 13

              Management Comments and OIG Analysis ......................................................... 13


              Contingency Plans for Sustaining Core Capabilities ............................................. 14



   Appendixes
              Appendix A: Objectives, Scope, and Methodology .............................................. 15

              Appendix B: FEMA Management Comments to the Draft Report ....................... 18

              Appendix C: Idaho Management Comments to the Draft Report ........................ 22

              Appendix D: Homeland Security Grant Program Overview .................................. 31

              Appendix E: Idaho Area Field Office Regions........................................................ 32

              Appendix F: Major Contributors to This Report ................................................... 33

              Appendix G: Report Distribution .......................................................................... 34





www.oig.dhs.gov                                                                                                                  OIG-14-61
                       OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


   Abbreviations
           CFR      Code of Federal Regulations
           DHS      Department of Homeland Security
           FEMA     Federal Emergency Management Agency
           FY       fiscal year
           hazmat   hazardous material
           HSGP     Homeland Security Grant Program
           IBHS     Idaho Bureau of Homeland Security
           OIG      Office of Inspector General
           SHSP     State Homeland Security Program
           SPR      state preparedness report
           THIRA    Threat and Hazard Identification and Risk Assessment




www.oig.dhs.gov                                                            OIG-14-61 

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, requires the Department of Homeland Security Office of Inspector General to
   audit individual States’ management of State Homeland Security Program and Urban
   Areas Security Initiative grants. This report responds to the reporting requirement for
   Idaho.

   The audit objectives were to determine whether Idaho used State Homeland Security
   Program grant funds in accordance with the law, program guidance, state homeland
   security strategies, and other applicable plans. We also addressed the extent to which
   funds awarded enhanced the ability of Idaho grantees to prevent, prepare for, protect
   against, and respond to natural disasters, acts of terrorism, and other manmade
   disasters. The Federal Emergency Management Agency (FEMA) awarded Idaho about
   $14.5 million in State Homeland Security Program grants during fiscal years 2010
   through 2012. Idaho does not have a FEMA-designated urban area; therefore, it did not
   receive Urban Areas Security Initiative grant funds.

   In most instances, Idaho distributed, administered, and spent State Homeland Security
   Program grant funds in compliance with applicable Federal laws and regulations.
   However, Idaho could improve its grant oversight, its progress measures for
   preparedness improvements, and the timeliness of obligating grant funds.

   We made four recommendations to FEMA, which when implemented, should
   strengthen program management, performance, and oversight of Idaho’s State
   Homeland Security Program. FEMA concurred with all four recommendations.




www.oig.dhs.gov                                1                                        OIG-14-61

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   The Department of Homeland Security (DHS) provides Federal funding through the
   Homeland Security Grant Program (HSGP) to assist State and local agencies to prevent,
   prepare for, protect against, respond to, and recover from acts of terrorism, major
   disasters, and other emergencies. Within DHS, FEMA is responsible for administering
   the HSGP. The HSGP is designed to fund a wide range of preparedness needs, including
   planning, organization, equipment, training, and exercises. The State Homeland Security
   Program (SHSP) falls under the HSGP. Appendix D contains a detailed description of the
   grant programs that constitute the HSGP.

   HSGP guidance requires a state administrative agency to administer and manage grant
   funding awarded under the HSGP. In July 2010, the Governor of Idaho designated the
   Idaho Bureau of Homeland Security (IBHS) as the state administrative agency. As such,
   IBHS is responsible for managing the SHSP in accordance with established Federal
   guidelines and for allocating funds to local, regional, and other Idaho government
   entities. Under the leadership of its director, IBHS has four primary branches—Grants,
   Preparedness and Protection, Response and Recovery, and Communications.

   During fiscal years (FY) 2010 through 2012, FEMA awarded Idaho SHSP grant funds
   totaling about $14.5 million. The State does not have a FEMA-designated urban area
   and did not receive Urban Areas Security Initiative Grant funds. Idaho subsequently
   issued 180 subgrant awards totaling $11.6 million to local jurisdictions and special
   teams, with the remaining $2.9 million allocated to state projects. Geographically, Idaho
   is the fourteenth largest state and has 44 counties divided across 7 field regions.
   Appendix E contains a map of these counties and regions. Idaho is a major resettlement
   hub for refugees from other countries and has five federally recognized Native American
   tribes.

   Figure 1 shows SHSP funding levels for Idaho for FYs 2008 to 2012. SHSP funding
   averaged $4.85 million annually for FYs 2010 through 2012, the period covered by our
   audit. The State received its highest level of SHSP funding in FY 2010; funding declined
   by $3.81 million from FY 2010 to FY 2012. Appendix A contains details on the objectives,
   scope, and methodology of this audit.




www.oig.dhs.gov                               2                                        OIG-14-61

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Figure 1. SHSP Funding Levels, FYs 2008 through 2012

                                           Idaho SHSP Funding
     $7,000,000
                                                                $6,613,200
     $6,000,000                                $6,524,500
                           $6,170,000
     $5,000,000                                                                 $5,137,205

     $4,000,000
     $3,000,000
     $2,000,000                                                                         $2,801,316

     $1,000,000
              $-
                         2008             2009           2010            2011            2012
   Source: DHS Office of Inspector General (OIG)


   Results of Audit

   In most instances, Idaho used SHSP grant funds in compliance with applicable Federal
   laws and regulations. However, the State did not: 1) provide adequate grant oversight,
   2) include specific progress measures for preparedness improvements, and 3) obligate
   grants funds within the 45-day requirement.

           Grant Oversight

           In FYs 2010 through 2012, IBHS did not adequately oversee its subgrantees to
           ensure that they managed their SHSP grants in compliance with Federal
           requirements. IBHS did not have a plan for onsite monitoring to review
           subgrantee grant records to ensure compliance with grant requirements. Also,
           IBHS and its subgrantees did not properly manage equipment inventories and
           property records.

           Monitoring

           According to the Office of Management and Budget Circular A-133, Compliancef
           SupplementfPartf3,fSectionfM,fSubrecipientfMonitoring, dated June 2010, March
           2011, and June 2012,fgrantees are responsible for monitoring subgrantees’ use
           of Federal awards through reporting, site visits, regular contact, or other means.

www.oig.dhs.gov                                      3                                          OIG-14-61

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Also, according to Title 44 of the Code of Federal Regulations (CFR) §13.40 –
           MonitoringfandfReportingfProgramfPerformance,fgrantees are responsible for
           managing the day-to-day operations of grant- and subgrantee-supported
           activities, and for ensuring grant recipients comply with applicable Federal
           requirements and achieve program performance goals.

           At the time of our audit, IBHS had conducted two financial monitoring site visits
           of subgrantees to review FY 2010 grant funding and had not conducted any site
           visits related to FYs 2011 and 2012 grant funds. IBHS’ Grants Branch splits
           monitoring responsibilities between the Finance Section, which is responsible for
           onsite monitoring and reviewing quarterly financial and semi-annual reports, and
           the Logistics Section, which is responsible for equipment monitoring. During the
           3-year performance period of the FY 2010 grant, the Finance Section conducted
           two onsite visits of subgrantees who had received FY 2010 SHSP funds.

           According to IBHS officials, although they have “regular and constant” contact
           with subgrantees, they have not “done well” in their onsite monitoring to ensure
           that subgrantees are complying with laws and regulations. An IBHS official
           explained that, as of January 2013, their monitoring plan only included SHSP
           grants awarded through FY 2009, and their planning efforts for FYs 2010 to 2012
           grants began in 2013. The officials recognized the need to improve their
           monitoring and had developed a robust onsite monitoring schedule for FYs 2013
           and 2014.

           At the time of our audit, the Logistics Section had conducted equipment
           monitoring site visits for 4 of 44 counties to review equipment purchased with FY
           2010 SHSP grant funds; it had not conducted any site visits for equipment
           purchased with funds from FYs 2011 and 2012. Table 1 shows the value of the
           equipment we examined at the local counties, the Boise Police Department
           Fusion Center, and at hazardous material (hazmat) and bomb squad “special
           teams” subgrantees. As of June 2013, IBHS had not conducted onsite reviews for
           any of this equipment.

           Without adequate financial and equipment monitoring of subgrantees, IBHS
           cannot be assured that grant funds are being used as intended.




www.oig.dhs.gov                                4                                       OIG-14-61

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           Table 1. Total Value of OIG-reviewed Subgrantee Equipment from FYs 2010-2012* 

                         Subgrantee                            Value of              IBHS Site Visits
                                                              Equipment
                                                                Sample
           Ada County                                           $99,256.50                None
           Bannock County                                      $104,086.26                None
           Bonneville County                                   $121,522.69                None
           Canyon County                                       $586,826.37                None
           Kootenai County                                     $394,808.90                None
           Twin Falls County                                    $78,367.96                None
           Region 3 Bomb Squad                                  $11,884.49                None
           Region 3 Hazmat                                       $6,432.01                None
           Region 4 Bomb Squad                                  $36,324.49                None
           Region 7 Bomb Squad                                  $17,775.50                None
          Subtotal Local County Jurisdictions and            $1,457,285.17                None
          Special Teams
          Boise Police Department Fusion Center                 $40,950.23                None
                             FY 2010 to 2012 Total           $1,498,235.40
            Source: DHS OIG
           *Although IBHS conducted four site visits of equipment purchased with FY 2010 funds, this equipment was
           not included in our sample because those sites did not meet our selection criteria.


           Subgrantee Procurements

           According to 44 CFR §13.36 – Procurement and 44 CFR §13.42 – Retentionfandf
           accessfrequirementsfforfrecords, grantees and subgrantees are required to
           maintain records detailing the significant history of a procurement; and all grant
           financial and programmatic records should be maintained for at least 3 years
           after the end of the grant period.

           Idaho did not ensure that subgrantees maintained adequate documentation
           supporting the procurement of equipment and services purchased with grant
           funds. Local jurisdictions typically followed the IdahofCode Title 67 Chapter 28,
           PurchasingfbyfPoliticalfSubdivisions,ffor procurement procedures. IBHS’ Grants
           Branch relied on local jurisdictions to follow applicable procurement procedures
           when selecting vendors for grant purchases. Prior to approving purchases, IBHS
           did not verify that subgrantees followed appropriate procurement procedures,
           nor did it monitor subgrantees in a timely manner to ensure that, pursuant to
           Federal regulations, they maintained and retained adequate procurement
           records. At the local level, subgrantee grant coordinators were not fully aware of
           the CFR requirement to maintain adequate historical supporting documentation
           for procurements and did not know how this requirement differed from state
           procurement requirements. As a result, subgrantees typically followed the state

www.oig.dhs.gov                                          5                                                   OIG-14-61

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           code for procurement record retention. For example, a sole source contract was
           not fully documented because negotiations over the phone were not
           documented.

           Without verifying that subgrantees maintain proper procurement records, the
           State cannot guarantee that subgrantees are obtaining the best value for
           equipment and services purchased.

           Inventory Management

           According to 44 CFR §13.32 � Equipment, for equipment acquired with grant
           funds, the state and its subgrantees must maintain property records that include
           the property’s description, identification number, source of the property,
           titleholder, acquisition date, cost including percentage of Federal participation,
           location, use and condition, and ultimate disposition. Every 2 years, a physical
           inventory of the property must be taken and the results reconciled with property
           records.

           We reviewed a sample of equipment property records maintained by IBHS and
           determined that it did not always comply with property record requirements.
           IBHS developed a process to track all the grant-funded equipment purchases,
           which includes a searchable database and is considered a best practice by FEMA
           and IBHS. However, the database does not include all required property record
           elements. For example, not all records included a unique identification number,
           such as a serial number. According to the Logistics Division, this sometimes
           occurred because the Accounting Department did not always forward serial
           numbers from vendor invoices to the Logistics Division, which is responsible for
           the equipment tracking database. The condition and use of the property and its
           ultimate disposition were also missing from the database. Finally, information on
           the location of equipment was not always specific.

           Subgrantees also did not comply with property record and inventory
           requirements in the CFR. Specifically, property records maintained by the
           subgrantees were missing some required information, and only two of the
           subgrantees met the requirement to conduct a physical inventory of equipment
           every 2 years.fAccording to most of the subgrantees we visited, they were not
           aware of the CFR property record requirements, although the regulation is
           included in IBHS’ award letter to subgrantees. Some of the subgrantees also said
           they were not aware that they needed to keep an inventory of equipment
           purchased with SHSP funds.

www.oig.dhs.gov                                6                                        OIG-14-61

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



           IBHS also did not adequately monitor the subgrantees to ensure they maintained
           complete property records and conducted required physical inventories of
           equipment purchased with SHSP grant funds from FYs 2010 through 2012. IBHS
           recently developed an equipment monitoring plan to monitor all 44 counties
           over 3 years, but the plan does not include a review of subgrantee inventory
           records. The Finance Section monitors inventory records during site visits.

           Without compliance with property record and inventory requirements, the State
           cannot ensure that assets procured with grant funds are properly safeguarded,
           are in good condition, and are available when needed to prevent, prepare for,
           protect against, and respond to natural and manmade disasters.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate
           require IBHS to:

           Recommendation #1:

           Develop a regular monitoring plan and schedule to ensure that subgrantees
           comply with Federal requirements for maintaining grant records.

           Recommendation #2:

           Evaluate and update current methods used to record state and subgrantee
           equipment purchases to ensure property records include all federally required
           data elements and ensure that physical inventories of equipment are conducted
           pursuant to Federal regulations.

           Management Comments and OIG Analysis

           FEMA’s and IBHS’ Responses to Recommendation #1:
           FEMA and IBHS concurred with recommendation #1. However, IBHS did not
           agree with our assessment that IBHS did not adequately monitor subgrantees in
           FYs 2011 and 2012. Because there were few or no expenditures during these
           fiscal years, IBHS deemed it more cost effective to monitor the grants during the
           periods when funds were actively obligated. IBHS included the list of subgrantee
           monitoring visits completed in 2013 and the monitoring schedule for 2014.


www.oig.dhs.gov                                7                                       OIG-14-61

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           According to IBHS, under the more aggressive 2014 schedule, it will monitor
           subgrantees every 2 years.

           FEMA agreed to require IBHS to submit a monitoring plan that ensures
           subgrantee compliance with Federal requirements for maintaining grant records
           and includes IBHS’ rationale for selecting subgrantees for desk reviews and site
           visits. FEMA requested that the recommendation status be changed to resolved
           and open, with an estimated completion date of September 30, 2014.

           OIG Analysis:
           FEMA’s and IBHS’ proposed actions meet the intent of recommendation #1, but
           the recommendation will remain unresolved and open pending our review of the
           following FEMA-provided documents: 1) a detailed monitoring plan with
           milestone dates for desk reviews and site visits, 2) a documented methodology
           used to select subgrantees for monitoring, and 3) updated policy and procedures
           with effective dates for implemented actions.

           FEMA’s and IBHS’ Responses to Recommendation #2:
           FEMA concurred with recommendation #2; IBHS did not concur. IBHS asserted
           that our finding regarding property records was based on the equipment
           tracking database (Equipment Tracker), which tracks HSGP subgrantee
           equipment purchases. According to IBHS, Equipment Tracker was not designed
           or intended to replace the State Fixed Assets System, which IBHS believes meets
           the CFR requirements, or subgrantees’ inventory procedures. IBHS also noted
           that we incorrectly referenced the IdahofPurchasingfGuide, which includes
           regulations for state purchases, not for purchases made by local jurisdictions;
           IBHS identified Title 67, Chapter 28 of the IdahofCode as the correct reference.
           According to IBHS, the Federal and state regulatory guidance it provides
           subgrantees in application packages is sufficient, and it is the subgrantees’
           responsibility to determine which requirements to follow for their procurement
           procedures. Nevertheless, IBHS has included additional checks in its monitoring
           procedures to ensure subgrantee procurement records comply with the CFR.

           FEMA will require IBHS to submit an updated methodology for recording state
           and subgrantee purchases to ensure property records include all federally
           required data elements and to ensure it conducts physical inventories of
           equipment, pursuant to Federal regulations. FEMA requested that the
           recommendation status be changed to resolved and open, with an estimated
           completion date of September 30, 2014.


www.oig.dhs.gov                                8                                         OIG-14-61

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           OIG Analysis:
           The actions proposed by FEMA and IBHS partially meet the intent of
           recommendation #2. Specifically, FEMA proposed actions to address inventory
           and property record deficiencies; however, it did not identify actions to correct
           deficiencies related to subgrantee procurements.

           At the time of our audit, IBHS informed us that Equipment Tracker was the
           central database it used to track all grant-related equipment purchases and
           other pertinent information. Therefore, we used this database to determine
           whether IBHS met the requirements for equipment purchased with grant funds.
           We understood that the Idaho Fixed Assets System was used only to track
           information on state purchases. We reviewed state equipment purchased with
           grant funds and did not identify any deficiencies. Because the CFR requires
           maintenance of adequate property records for all equipment purchased with
           grant funds, as the grantee, IBHS is responsible for ensuring that both the State
           and its subgrantees meet this requirement.

           The IdahofCode is now included in the report as the correct reference for
           purchases by local jurisdictions.

           Although IBHS informs its subgrantees of the codified requirements in
           application packages, at several subgrantee sites we reviewed, the grant
           coordinators did not fully understand the differences between the IdahofCode
           and CFR requirements for maintaining and retaining procurement records. As a
           result, subgrantees typically followed state requirements for retaining these
           records. As the grantee, Idaho is responsible for ensuring that subgrantees
           understand how to correctly apply Federal and state regulations. The State must
           also ensure that subgrantee procurement records include adequate historical
           documentation and comply with CFR requirements through regular and
           consistent monitoring of subgrantee activities.

           This recommendation will remain unresolved and open until FEMA provides us
           with IBHS’ documented methodology, pursuant to Federal regulations, to 1)
           record, track, and inventory SHSP equipment purchases and 2) monitor and
           review subgrantee procurement activities and records for compliance.




www.oig.dhs.gov                                 9                                        OIG-14-61

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Measuring Preparedness Improvements


           Neither IBHS’ state homeland security strategies nor its Threat and Hazard
           Identification and Risk Assessment (THIRA) included specific measures to track
           progress toward achieving its preparedness objectives. Without goals and
           objectives against which it can measure progress, IBHS will have difficulty
           evaluating the effect of grant expenditures on the State’s preparedness and
           emergency response capabilities.

           For FYs 2010 through 2012, IBHS prepared state homeland security strategies
           that aligned with the national priorities and mission areas in DHS’fStatefandf
           UrbanfAreafHomelandfSecurityfStrategyfGuidancefonfAligningfStrategiesfwithfthef
           NationalfPreparednessfGoalf(guidance), dated July 2005. According to the
           guidance, strategies should also include objectives that set tangible and
           measurable target levels of performance over time, against which actual
           achievement can be compared. The state strategies did not include measurable
           target levels of performance or goals and objectives with performance measures
           to track progress. Title 44 CFR § 13.40 (a) also requires monitoring of grant
           activities to ensure performance goals are achieved. IBHS officials acknowledged
           that the state strategies did not include specific measures, but noted that they
           did not actively use the current state strategy. They also said that, with FEMA’s
           development of the THIRA in FY 2012, they placed less emphasis on the strategy.

           In FY 2012, as required by FEMA, IBHS completed a THIRA to identify risk areas
           and assess overall capability gaps, as well as identify improvements resulting
           from grant-funded projects. According to FEMA’s evaluation of IBHS’ THIRA, the
           State needs to include more quantifiable measures for core capabilities and
           capability targets, which can be compared to actual achievements. Specifically,
           FEMA noted that the “desired outcomes” in Idaho’s THIRAfdo not always include
           measurable or quantitative descriptors. FEMA further commented that “terms
           such as, ‘coordinate,’ ‘ensure,’ ‘establish,’ and ‘stabilize’ all have subjective
           definitions that should be clarified and/or quantified.” Annually, the results of
           the THIRA are captured and prioritized in the state preparedness report (SPR)
           along with strategy goals to mitigate gaps. The SPR will also capture the State’s
           progress toward achieving goals through grant funded investments.




www.oig.dhs.gov                               10                                       OIG-14-61

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate
           require IBHS to:

           Recommendation #3:

           Ensure that the state preparedness report contains measurable and quantifiable
           outcomes.

           Management Comments and OIG Analysis

           FEMA’s Response to Recommendation #3:
           FEMA concurred with recommendation #3. FEMA requested that the
           recommendation refer to the SPR rather than the THIRA as we had originally
           written because the SPR is the appropriate document to identify gaps in
           capabilities, prioritize capabilities, and chart the strategy to fill the gaps. On
           August 29, 2013, FEMA released a consistent methodology for determining risks
           in the ComprehensivefPreparednessfGuidef201:fThreatfandfHazardfIdentificationf
           andfRiskfAssessmentf(THIRA)fGuidef(CPG-201)fSecondfEdition. The guide
           describes a four-step process that jurisdictions can use to achieve desired
           outcomes and capability targets for each core capability. This approach allows a
           jurisdiction to establish its own capability targets based on the risks it faces. The
           next step ties investment justifications submitted in the grant application directly
           to identified needs and shortfalls. Grantees must identify and prioritize the core
           capability or capabilities, as well as capability gaps noted in the SPR, that the
           investment intends to address. They must also identify the specific outcome(s) of
           the investment. Taken together, the THIRA and the SPR identify capability needs
           and gaps, as well as show grantees’ progress in closing those gaps. FEMA reports
           the results of the capability assessments annually in the NationalfPreparednessf
           Report. Based on this information, FEMA requested that this recommendation
           be resolved and closed.

           IBHS’ Response to Recommendation #3:
           IBHS concurred with recommendation #3. The recommendation for this finding
           is based on the 2012 IBHS THIRA, which was the first year state administrative
           agencies were required to produce this document. According to IBHS, it was
           refining the 2013 THIRA and would include measurable and quantifiable metrics
           in the updated capability target statements. IBHS has now completed and


www.oig.dhs.gov                                 11                                        OIG-14-61

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           documented targets that set tangible and measurable target levels of
           performance in the 2013 THIRA, the 2014 IBHS strategic plan, and the 2013 SPR.

           OIG Analysis:
           As stated in our report, neither IBHS’ state homeland security strategies nor its
           THIRA included specific measures to track progress toward achieving its
           preparedness objectives. The scope of the audit was for FYs 2010 through 2012
           and did not include a review of the draft 2013 THIRA. Also, we were to
           determine whether the State developed an appropriate system to measure
           improvements in preparedness as a result of the grants.

           According to FEMA, use of the THIRA, the SPR, and investment justifications
           satisfies the intent of this recommendation and creates a methodology for
           measuring progress toward preparedness. We agree that the SPR is intended to
           measure progress toward closing capability gaps by identifying these gaps,
           prioritizing capabilities, and charting a strategy to filling the gaps.

           OIG has revised recommendation #3 as FEMA requested.

           The actions proposed by FEMA and IBHS meet the intent of recommendation #3.
           This recommendation will be considered resolved and open pending review of
           IBHS’ 2013 SPR.

           Timely Obligation of Funds

           IBHS did not obligate grant funds on a timely basis for the 11 subgrantees
           reviewed. For FYs 2010 through 2012, the State did not obligate any SHSP funds
           to subgrantees within 45 days of receipt of funds, as required by FEMA’s grant
           guidance. According to the guidance, there are four requirements for obligating
           grant funds:

                  �	 There must be some action to establish a firm commitment on the part of
                     the awarding entity;
                  �	 The action must be unconditional on the part of the awarding entity (i.e.,
                     no contingencies for availability of funds);
                  �	 There must be documentary evidence of the commitment; and
                  �	 The award terms must be communicated to the official grantee.

           IBHS did not meet the grant requirements because of its lengthy obligation and
           approval process. It fully obligated grant funds an average of 204 days after the
www.oig.dhs.gov                                  12                                	      OIG-14-61

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           45-day requirement in FY 2010, 215 days in FY 2011, and 191 days in FY 2012.
           According to IBHS officials, they could not meet the 45-day requirement because
           of state and local processes. For example, once the award is received from
           FEMA, IBHS calculates its allocations for the various subgrantees, determines
           projects, and sets up the accounting structure, before sending subgrantee award
           packages. Also, at the local level, subgrantees typically need approval from their
           respective boards of commissioners, which in some instances can take more
           than 45 days. Untimely obligation of grant funds reduces the amount of time to
           use the funds, which could result in subgrantees needing to request grant
           extensions to complete projects or could lead to a reduction or termination of
           funding granted to the State.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate
           require IBHS to:

           Recommendation #4:

           Review and update its obligation and approval process to identify ways to
           streamline the process to work toward attaining the goal of obligating the funds
           to subgrantees within 45 days.

           Management Comments and OIG Analysis

           FEMA’s and IBHS’ Responses to Recommendation #4: 

           FEMA concurred with recommendation #4. IBHS did not concur with this 

           recommendation because it believes it met the 45-day requirement by sending 

           application and award packages to subgrantees. 


           FEMA will require IBHS to submit an obligation and approval process that
           streamlines the award process to ensure IBHS obligates funds within 45 days.
           FEMA requested that this recommendation be changed to resolved and open,
           with an estimated completion date of September 30, 2014.

           OIG Analysis:
           The action proposed by FEMA appears to meet the intent of recommendation
           #4. This recommendation will remain unresolved and open until we have
           reviewed IBHS’ submission to FEMA on streamlining its award process to meet
           the 45-day requirement.

www.oig.dhs.gov                                13                                       OIG-14-61

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           Contingency Plans for Sustaining Core Capabilities 


           In our draft report, we recommended that the FEMA Assistant Administrator,
           Grant Programs Directorate encourage IBHS to develop and implement a
           comprehensive contingency plan to sustain and/or prioritize capabilities should
           Federal grant funds continue to be reduced or eliminated. Neither FEMA nor
           IBHS concurred with the recommendation.

           Since FY 2012, FEMA has required HSGP grantees to prioritize sustaining existing
           capabilities over using grant funding to build new capabilities. FEMA requires
           grantees to substantiate this prioritization in their investment justifications and
           Biannual Strategy Implementation Reports. Although FEMA does not have the
           legal authority to require states to maintain and sustain capabilities in the
           absence of Federal grant funding, it uses administrative and policy procedures to
           ensure that grantees sustain grant-funded capabilities.

           With less funding available from Federal sources, the State will need to enhance
           its contingency planning to prioritize its grant-funded core capabilities and
           identify alternative sources to fund and sustain these investments. Without a
           contingency plan to sustain its preparedness capabilities, in the event of reduced
           Federal funding, the State’s ability to prevent, protect against, mitigate, respond
           to, and recover from terrorist attacks and major disasters may be diminished.

           We recognize that FEMA does not have the statutory authority to require IBHS to
           develop and implement a comprehensive contingency plan. As a result, we have
           withdrawn the recommendation and adjusted the Executive Summary and
           Results of Audit sections accordingly.




www.oig.dhs.gov                                14                                        OIG-14-61

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, as amended, requires DHS OIG to audit individual states’ management of State
   Homeland Security Program and Urban Areas Security Initiative grants. This report
   responds to the reporting requirement for the State of Idaho.

   The objectives of the audit were to determine whether Idaho used State Homeland
   Security Program grant funds in accordance with the law, program guidance, and state
   homeland security strategies, and other applicable plans. We also addressed the extent
   to which funds awarded enhanced the ability of Idaho grantees to prevent, prepare for,
   protect against, and respond to natural disasters, acts of terrorism and other manmade
   disasters.

   Together, HSGP and its five interrelated grant programs fund a range of preparedness
   activities, including planning, organization, equipment purchase, training, exercises, and
   management and administration costs. Only SHSP funding and equipment and programs
   supported by SHSP grant funding were reviewed for compliance.

   The scope of this audit included the plans developed by the State to improve
   preparedness and response to all types of hazards, as well as the goals and objectives in
   those plans; the measurement of progress toward the goals, and assessments of
   performance improvement resulting from this measurement. Table 2 shows the funding
   scope for the audit, which included SHSP grant awards for FYs 2010, 2011, and 2012.

   Table 2. The State of Idaho’s SHSP Awards (FYs 2010 through 2012)
         Grant Program             FY 2010       FY 2011       FY 2012         Total
    State Homeland Security     $6,613,200.00 $5,137,205.00 $2,801,316.00 $14,551,721.00
    Program
   Source: DHS OIG analysis of FEMA data

   The audit methodology included work at FEMA headquarters, state offices in Idaho, and
   various subgrantee locations in Idaho. Table 3 shows the value of the subgrantee grant
www.oig.dhs.gov                               15                                      OIG-14-61
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   awards from our sample selection. At each location, we interviewed responsible officials
   and reviewed documentation supporting state and subgrantee management of grant
   funds.

           Table 3. Value of FY 2010 to FY 2012 Subgrantee Awards Reviewed
                           Subgrantee               Total Value of Grant Awards
          Ada County                                               $1,960,398.28
          Bannock County                                             $460,647.00
          Bonneville County                                          $559,813.89
          Canyon County                                              $975,192.92
          Kootenai County                                            $736,310.20
          City of Twin Falls                                         $437,602.59
          Boise Police Department Fusion Center                      $124,500.00
          Region 3 Bomb Squad                                         $76,000.00
          Region 3 Hazmat                                             $78,000.00
          Region 4 Bomb Squad                                         $60,000.00
          Region 7 Bomb Squad                                         $76,000.00
                                            Total                  $5,544,464.88
         Source: DHS OIG

   We obtained all Idaho subgrantee grants awarded during FYs 2010 through 2012, which
   totaled $14.5 million. We validated the total subgrantee awards by reviewing Idaho’s
   grant allocation risk methodology for making subgrantee awards. Based on our review,
   we determined that the subgrantee awards were consistent with their methodology;
   therefore, we deemed the data reliable.

   We judgmentally selected a sample of 11 subgrantees with total awards of $5.5 million
   representing about 38 percent of the total grant dollars ($14.5 million) awarded to
   Idaho. We determined our sample based on the total expenditures reported by Idaho as
   of mid-May 2013. We considered sites that were in close proximity to one another due
   to budget, timing constraints, and travel restrictions. For each sample, we reviewed
   expenditures to determine whether these costs were supported and allowable under
   the grants. To observe and verify its existence at sample subgrantee sites, we also
   reviewed a judgmental sample of equipment procured with grant funds, valued at
   approximately $1.5 million for subgrantees and approximately $118,000 for IBHS.

   We conducted this performance audit between April 2013 and September 2013
   pursuant to the InspectorfGeneralfActfoff1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
www.oig.dhs.gov                                16                                     OIG-14-61
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.
   f




www.oig.dhs.gov                               17                                      OIG-14-61

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


   Appendix B
   FEMA Management Comments to the Draft Report
                                                                                          1.! ."1. flt•Jlllr-frr•<'nt ,~r llomehmd Se!f..'udt.,-
                                                                                          vv-ashinglOt'l. DC 2e472.




                                                                                        FEMA
                                                        JAN 2 4 2014


                  MEMORANDUM FOR:              Anne L. Richard
                                               Assistant Inspector General for Audits
                                               Office of Inspector Gcncml (OIG)
                                               Department of Homeland Security

                  FROM:                         David J. Kaufman
                                                Associate Adminis trator f<n
                                                Policy, Program Analysis and International At)'airs

                  SUBJECT:                     Federal Emergency Management Agency (FEMA) Response to
                                               OIG Draft Report: "Idaho's Manag..:mcnt of Homeland Security
                                               Grant Progrnm Awards For Fiscal Years 2010 rhrough 2012" 010
                                               Project No. 13-13 8-A UD-FEMA


                  Thank you tor the opportunity to comment on OlG Draft Report, ';Idaho's Management of
                  Homeland Security Grant Program AwMds For Fiscal Years 2010 Through 2012" OIG Project
                  No. 13-138-AL'D-FEMA. The findings in the report will be used to strengthen the effectiveness
                  and eftlcieucy oCbuw w..: oxc>:uk and measure our program. We reGognize the need to continue
                  to improve the process, including addressing the recommendations mised in this report. The
                  f(lllowing are our l<:~punsc lu the Jiv..: (5) recommendations for implementation, of which, FEMA
                  concurs with recommendations 1 through 4 (UlC non-concur with recommendation 5.

              Recommendntion ffl: We recommend that the Assistant Administrator, Grant Programs
              Direcluralc require Idaho Bureau of Homel3nd Security (IBHS) to develop a regular monitoring
              plan and schedule to ensure that sub grantees comply with Federal requirements for maintaining
              grllnt records

              Response: {:nncur. FF.MA will require IBHS to submit a monitoring plan that ensures
              subgrantces comply with Federal requirements for maintaining grant records. FEMA will ensure
              lhallhis plan includes a rntionale hy which lRHS choo~es its desk review and site visit
              recipients.

              FEMA requests this t]nding be changed to Resolved and Open.

              Estimated Completion Date (ECD): September 30, 2014




                                                                                        W\\'W_fcltJa_guv




www.oig.dhs.gov                                                 18                                                                                 OIG-14-61

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


                  Recommendation #2: We recommend that the Assistant Administrator. Gran t Prognnns
                  Directorate require TBHS to evaluate and update current methods used to reeord Stare and
                  subr:,>nmtee equipment purchases to ensure propelty records include all federally required data
                  elements and ensure 1hat physical inventories of equipment arc conducted pursuant to Federal
                  regulations.

                  Response: Concur. FEMA wi ll require IBHS to submi t an updated methodology by which it
                  records state and subgrantee purchases to ensure property records include aU federally required
                  data c l ement~ and ensure that physical inventories of equipment arc conducted pursuant to
                  Federal regulations.

                  FEN'v \ requests this finding be changed to Resolved and Open.

                  Estimated Completion Date (ECD): September 30. 20L4

                  Recommendation #3: We recommend that the Assistant Administrator, Grant Programs
                  Directorate require IBHS to ensure that the Threat and Ha7.ard ldentification and Risk
                  Assessment (THLRA) contains measurable and quantifiable outcomes.

                  Response: Concur. FEMi\ requests a technical correction to the recommendation to read as
                  follows:

                         "We recommend that the Assistant Administrator, Grant Programs Directorate require
                         !BHS to ensure that the State Preparedness Report contains measurable and quantitiable
                         outcomes''

                  As highlighted in the discussion below, FEMA believes that the State Preparedness Report {SPR)
                  is the appwpriatc document tor grantees to identify gaps in capabil ities and to prioritize
                  capabilities and chart the strategy for fi lling those gaps.

              The integrated preparedness system has its basis in the strategic plan and planning process. As
              part of this plan and process, OIG has reconuucnded that FEMA help states, territories and urban
              areas establish measurable goals and objectives that will enahle them to systematically measure
              improvements in tirst responder capabiljties and statewide preparedness. FEMA has established
              and implemented a system to do exactly that, as described below.

              Measuring Grant Effectiveness
              As part of the National Preparedness System, FEMA has developed and is implementing
              performance assessments that measure progress toward achieving the Goal. FEMA 's strategy is
              to base assessments on the principles that the Nation needs tu understand existing risks, use those
              risks to determine required capabilities, asse~s cummt eapability levels against those
              requirements, and track its progress in closing identified capability gaps.

              On August 29, 2013, FEMA rclca:;cd a consistent methodology for determining ri sks in 1he
              Comprehensive Preparedness Guide 20 I : Threat and Hazard Identification and Risk Assessment
              (THIRA) Guide (CPG-20 1) Second Edition. CPG-201 details a four-step process jurisdictions


                                                                  2




www.oig.dhs.gov                                                 19                                                  OIG-14-61

                                        OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


                  can usc to achieve desired outcomes and capability targets for each of the core capabilities. Th1s
                  approach allows a jurisdiction to establish its own capability targets based on the risks it fv.ccs.

                  On December) i , 2012, states, territories, and major urban areas receiving Homeland Secmity
                  Grant Program (IISGP) funds were required to submit their TJ!IRAs to fEMA. Once each
                  jurisdiction has determined capability targets through the THIRA process, it estimates its current
                  capability levels against those targets. Also in 2012, states and territories were required to
                  ~ubmit SPR.s to FEMA. The THIRA and SPR proccssc~ arc ~calabk to allow sub-jurisdictions,
                  sub-grantees and subject matter experts to provide input to the state or territory. Taken together,
                  the THIRA results and the SPR identify capabil.ity needs and gaps. The THIRA and SPR results
                  h1ghlight gaps in capability and the progress of gramees in closing those gaps over time. FE\1A
                  reports the results of the capability assessments annually in the National Preparedness Report
                  (NPR).

                  Sustaining, Building and Delivering Capl!bilities
                  Having estimated capability requirements, the next component of the National Preparedness
                  System is to build and sustain capabilities. This step tics grant investments directly to needs and
                  shortfalls. Grantees address documented capability requirements and gaps in their b'l'ant
                  applications. In the investment justifications (IJ) submitted in the grant application, grantees
                  must spccilkally identity the core capabllity or capabilities, the priority of the core capability as
                  weH as the capability gaps noted in their SPR that investment intends to address. In addition, the
                  grantee must identify the specific outcome(s) that the investment \vill yield. FEMA verities
                  completion of the investment/project through its programmatic monitoring and spending on the
                  investment through the Biannual Strategy Implementation Report (BSIR), also a tool used in the
                  monitoring process. Since the period of performance for the Homeland Security Grant Program
                  is two years, a time limit is set for completion of the project once it is timded.

              FEMA addressed the OIG recommendation for States to establish SMART goals and objectives
              that will enable States and Territories to systematically measure improvements in first responder
              capabilities and statewide preparedness by requiring states tn use a set of tools including the
              THIRA, SPR, P.nd lJs. Strategy updates are encouraged but not required as the TH!RA, SPR and
              IJ methodology provide the goals and assessment of progress against those goals.

              Based on this intormation, FEMA requests this recommendation be resolved and closed.


              Rc(ommendation #4: We recommend that the Assistant Administrator, Grant Programs
              Directorate require IRHS to review and update its obligation and approval process to identify
              ways to streamline the process to work toward attaining the goal of obligating the funds to
              subgrantecs within 45 days.

              Response: Coneur. FEMA will require IBHS to submit an obligation and approval process to
              streamline the avvarding process that ensures that IBHS obligates funds within 45 days.

              FEMA requests this finding be changed to Resolved and Open.




www.oig.dhs.gov                                                   20                                                      OIG-14-61

                                        OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


                  Estimated Completion Date (ECD): Septemhc;;r 30, 2014

                  Recommendation #5: We recommend that the Assistant Administrator, Grant Programs
                  Directorate require IBHS to consider developing and implementing a comprehensive
                  contingency plan to sustain and/or prioritize capabilities should Federal grant funds continue to
                  be reduced or eliminated.

                  Response: Non-Concur. FEMA docs not concur with this recommendation as it does not have
                  the legal authority to require sustainment in the event a State cannot achicYe it as a condition on
                  the receipt ofJ-ISCW grant tunding.

                  Congress statutorily created the lJAS! and SHSP grant programs in Title XX of the Homeland
                  Security Act of 2002, as amended. As t:nactcd by Congre~s, the UASJ and SHSP programs do
                  not reqtlire state and local level grant recipients to provide any cost sharing or cost matching
                  contributions, nut are grant recipients ~tatutorily required to sustain and maintain grant funded
                  projects for any length of time beyond the grant's pt,"''iod of performance. The result is that these
                  programs, as designed by Congress, allow grantees to achieve target capabilities using I 00%
                  federal funding, and require grantees to sustain and maintain those capabilities only during the
                  grant's period of performance. FEMA does not have the statutory authority under these
                  programs to require grantees to sustain grant funded projects beyond the grant's period of
                  performance as a condition of applying for or receiving SHSP or UASI award funding.

                  Notwithstanding the lack of legal authority to require States and other I:ISGP grant recipients to
                  maintain and sustain capabilities in the absence of continuing federal grant funding, since FY
                  2012. f EMA has required that HSGP grantees prioritize sustainment of existing capabilities over
                  utilizing grant funding to build new capabilities and requires that grantees supply information
                  substantiating this prioritization in their imestmcntjustifications and Ria.nnual Strategy
                  Implementation RcpOtis (BSIR). Despite the lack of legal authority to require States to maintain
                  and sustain capabilities in the absence offederal grant funding ..FEMA has used administrative
                  and policy meclk'lnisms to ensure that grant fumku (.;llpabilitics are sustained to the extent that
                  grant fimding is available.

              As a result of the actions taken by FEMA to ensure tlmt grantees utilize available funding to
              sustain and maintain existing capabilities over building new capabilities inc luding fusion centers,
              FEMA requests this recommendation be closed.

              Again, we thank you tor the work that you and your team did to inform us of measures we can
              take to enhance the program' s overall effectiveness. We look forward to OIG's tina( report tor
              "Idaho's Management ofllomcland Security Grant Program Awards For Fiscal Years 2010
              'Ibrough 2012" OIG Project No. 13-138-AF D-FEMA. Please direct any questions regarding this
              response to Gary McKeon, FEMA's Chief Audit Liaiso(\ at 202-646-1308.




www.oig.dhs.gov                                                   21                                                      OIG-14-61

                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Appendix C
   Idaho Management Comments to the Draft Report

                                                             STATE OF IDAHO
                                             BUREAU OF HOMELAND SECURITY
                                                       40<40 W . GUARD STREET, BLDG. GOO
                                                            BOISE, IDAHO 83705- 5004


                  C.L. nBUTCH" OTTER                       Maj Gen GARY L. SAYLER                           Col BRAD RJCHY
                       GOVERNOR                             ADJUTANT GENERAL                                   DIRECTOR



                  January 13,2014



                  Ms. Anne L. Richards
                  Assistant Inspector Geneml for Audits
                  Office oflnspectnr General, Department of Homeland Security
                  Washington, DC 20528

                  Response to Idaho 's Management of!lome/and Security Gran/ Program A wards fur Fiscal
                  Years 2010 through 2012

                  Dear Ms. Richards:

                  The Idaho Bureau of Homeland Security (BHS) appreciates the review of its processes and
                  procedures, in our shared tmdeavor to ensure grant funds are used in their intended manner. The
                  protection of Idaho citizens and the resiliency of our State are always our paramount concern.
                  We also pride ourselves in the proper and transparent financial management of grant funding.
                  After reviewing Idaho 's Management ofHomeland Security Grant Program Awards for Fiscal
                  Years 2010 through 2012, we have no reservation in publicly releasing this document upon
                  inclusion of the following responses to the listed recommendations.

                  Recommendation #1
                  BHS concurs with Recommendation #1 in that regular monitoring plans and schedules are
                  important instruments for ensuring grant compliance. We do however take issue with the
                  statement that BHS bad not conducted any site visits related to FY 2011 and 2012. At the time
                  of the audit, no expenditures had been made out of FY 2012 funding and few funds had been
                  expended out ofFY 2011 . As such, there was little or nothing to monitor at that point in the
                  grant performance period. Responsible, pertinent and cost-effective monitoring should take
                  place during the execution period ofthe grant when funds are being actively obligated. Attached
                  is the monitoring completed in calendar year 20 13, along with the scheduled subgrantee
                  monitoring for calendar year 2014. This schedule provides for monitoring of subgnmtees every
                  two years and provides for a more aggressive monitoring process going forward.

              Recommendation #2
              BHS does not concur with Reconunendation #2. The audit repon states that BHS did not always
              comply with property record requirements. This was based upon audit review of the equipment
              tracking database (Equipment Tracker). This equipment tracker was not designed for or intended
              to replace any existing inventory traclcing programs or procedures of subgrantees or BHS.
              Ratl!er, it was designed to identify equipment purchased with State Homeland Security Grant


                        Phone: (208) 422 30<40 • Fo x: (206) 422·3044 • 24- tlour Emergency Not>fication: (208) 846 -7610




www.oig.dhs.gov                                                      22                                                      OIG-14-61

                                        OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


                  Ms. Anne L. Richards
                  January 13, 2014
                  Page2


                  Program (HSGP) funds in order to ensure the eligibility of equipment purchases and track the
                  investment areas that were enhanced with grant funded equipment.

                  BHS currently, and at the time of the audit, uses the State ofldaho Fixed Asset System as the
                  system of record to track all state ofldaho equipment. This system meets all federal
                  requirements for tracking of grant funded equipment. This system was pointed out to auditors.
                  However, the report ignores its capabilities and instead focused on the equipment eligibility
                  management system.

                  The audit report incorrectly identifies subgrantee purchasing requirements. Idaho Code Title 67
                  Chapter 28 controls the procurement procedures oflocal units of government and subgrantecs
                  are not required to follow the Idaho Division of Purchasing, Purchasing Reference Guide. The
                  BHS relationship with HSGP subgrantees is contractual, from one autonomous unit of
                  government to another. BHS makes the procurement requirements codified in the CFR known to
                  subgrantee local units of government in the HSGP application package. It is then the
                  responsibility of subgrantees to follow the applicable procurement procedures. Recommendation
                  #2 fails to appreciate the separation of duties between state and local units of government.
                  However, IBHS has added additional checks in its monitoring process to ensure sub grantee
                  procurement compliance.

                  Recommendation #3
                  BHS concurs with Recommendation #3, with comment. The recommendation for this finding is
                  based on the 2012 BHS THIRA, which was the lirst year state agencies were required to produce
                  this document. Audit team members were apprised that BHS was actively engaged in the
                  process of refining the BHS THIRA for 2013, and that measurable and quantifiable mctrics
                  would be included in the updated capability target statements. Capability targets that set tangible
                  and measurable target levels of performance are now complete and documented in the 2013
                  THIRA, 2014 IBHS Strategic Plan, and the 2013 State Preparedness Report.

              BHS has attached a completed copy of the 2013 BHS THlRA as well as the Idaho Military
              Division, Bureau of Homeland Security 2014 Strategic Plan. The strategic p lan encompasses the
              2011 and forward State Homeland Security Grant Program. Notably, FEMA Region X has
              asked for BHS's THIRA and strategic plarming model to be presented as best practice examples
              to other states within the region, highlighting the improvements BHS has made to the 2013
              THIRA.




                        Phone: (208) 422·30GO • Fax: (208) 422· 3044 • 24 ·Hour Emergency Not1f1cation: (208) 846·76 10




www.oig.dhs.gov                                                      23                                                   OIG-14-61

                                           OFFICE OF INSPECTOR GENERAL
                                                Department of Homeland Security


                  Ms. Anne L. Richards
                  January 13,2014
                  Page3


                  Recommendation #4
                  BHS does not concur with Recommendation #4. Grant guidance for 2010-1012 mandates four
                  requirements for timely the obligation of grant funds .

                      •    There must be some action to establish a fum commitment on the part ofthe awarding
                           entity.
                           o BHS made a firm commitment when the application package indicating the award
                                amount was made available to subgrantees.

                      •    The action must be unconditional on the part of the awarding entity.
                           o The application was unconditional. There were no contingences.

                      •    There must be documentary evidence of the commitment.
                           o The commitment was documented when the application package was sent to the
                               subawardees.

                     •     The award terms must be communicated to the official grantee.
                           o The application package contained the specific award terms.

                  BHS believes that meeting the above criteria, within 45 days from the time that funds are made
                  available to the state, satisfies compliance with the grant guidance in place at the time. These
                  four obligatory elements were satisfied when the application package was sent to the subgrantees
                  via e-mail.

                  BHS understands the need to reduce the time from award to execution of the grant program; and
                  is committed to review processes and make changes to improve the subaward process.

                  Recommendation #5
                  BHS does not concur \vith Recommendation #5 nor do we accept this recommendation falls
                  within the scope of this OIG audit. The audit report admits that no requirement exists in
                  applicable grant guidance for a sustainment plan. The report references an information bulletin
                  that encourages budgetary planning; but this reference does not require states to develop a
                  comprehensive contingency plan to sustain preparedness capabilities in the event of reduced
                  federal funding. As a State government agency, BHS serves the citizens ofldaho as directed by
                  the Governor and as funded by the Legislature.

              The State of Idaho \viii always do everything in its power to provide for the safety of its citizens;
              however reductions in federal funding will have capability consequences. BHS was
              disappointed by the OTG recommendation which falls outside its scope, specifically that a Jack of
              a contingency plan is a reflection of BHS 's ability to prevent, protect against, mitigate, respond
              to, and recover from terrorist attacks and major disasters. BHS believes that this OIG



                          Phone: {208) 422·3040 • Fax : {208} 422·3044 • 24· Hour Emergency NOt ification: (208 } 846- 7510




www.oig.dhs.gov                                                         24                                                    OIG-14-61

                                        OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


                  Ms. Anne L. Richards
                  January 13, 2014
                  Page4


                  recommendation could have been handled informally, as a courtesy suggestion and not as a
                  recommendation that lies outside ofthe scope of this audit.

                  The Idaho Bureau of Homeland Security appreciates the opportunity to respond to the
                  recommendations outlined in the DHS OIG audit report. We believe our sincere efforts and
                  systematic processes increase Idaho's resiliency. Should you have any questions or require
                  further information please feel free to contact me or our Grants Management Branch.

                  Sincerely,


             $~
                  Brad Richy, Colonel, Idaho Military Division
                  Director, Idaho Bureau of Homeland Security




                        Phone: (208) 422 3040 • Fax: ( 208) 422-3044 • 24-Hour Emergency Not1fic~toon: (208) 846-7610




www.oig.dhs.gov                                                     25                                                  OIG-14-61

                                          OFFICE OF INSPECTOR GENERAL
                                                 Department of Homeland Security


                                                    Idaho Bureau of Homeland Security
                                                   Subgrantee Monitoring Visit
                                                   2013 Calander Year completed
                                                    Type of
               I              Subgrantee                           Grants Monitored     Award Amounts
                                                      Visit
                                                                      2009 HSGP                          $56,343.07
             1/2/13          Jerome County          Site Visit        2010 HSGP                          $67,586.92
                                                                     2011 EMPG                           $20,036.54
                                                                      2009 HSGP                          $45,345.53
             1/2/13          Gooding County         SiteVist          2010HSGP                           $54,671.55
                                                                     2011 EMPG                            $7,477.14
                                                                      7010 HSGP                          $30,272.84
                                                                      2011 11SGP                         $22,652.35
            11/21/13              Butte             Site Vi!).il
                                                                      2012 HSGP                          $12,746.22
                                                                     2012 EMPG                            $8,513 54
                                                                      2010 HSGP                         $117,91215
                                                                      20 11 HSGP                         $91,H4.54
            11/19/13             Bingham            Site Visit
                                                                      2012 HSGP                          $49,815.22
                                                                     2012 EMPG                           $33,272.88
                                                                      2010 HSGP                          $26,182.95
            11/18/ 13    Shoshone-Bannock Tribes    Site Vis it       2011 HSGP                          $26,182.95
                                                                      2012 H5GP                          $14,149.71
                                                                      2010 H5GP                         $197,1 1 7.04
                                                                      2011 H5GP                         $150,843.51
            11/18/13             Bannock            Site Visit
                                                                      20 12 HSGP                         $82,250.82
                                                                     2012 EMPG                           $54,937.45
                                                                      2010 HSG P                        $236,415.10
                                                                      2011 HSGP                         $185,148.93
            11/ 19/13       Bonneville Cllunty      S1t eV,sot
                                                                      2012 IISGP                        $101,228.80
                                                                     2012 EMPG                           $67,613.34
                                                                      2010 HSG P                         $76,363.96
                                                                      2011 HSG P                         $59,930.53
            11/21/13        Jefferson County        Sit e Visit
                                                                      2012 H5GP                          $32,925.75
                                                                     2012 EM PG                          $21, 991.97
                                                                      2010 HSGP                         $104,873.65
                                                                      2011 H5GP                          $77,914.62
            11/20/13         Madi,on COlJ'lty       Site Visit
                                                                     2012 HSGP                           542,863.82
                                                                     7012 EM PG                          $28,629.86
            11/2 0/13         Teton County          Sit e Visit      2010HSGP                            $54,592.14
                                                                     2012 EM PG                          $12,180.08
                                                                      2011 POM                          $428,909.56
                                                                     2010 HSGP                          $111,083.85
                                                                     20 11 H5GP                          $83,560.31
            9/27/13          Bonner County          Site V1sit
                                                                     2012 HSGP                           $45,394.11
                                                                     2012 EMPG                           $30,319.90
                                                                     2010 HSGP                           $11,742.26
           Desk review
                               CDA Tribe            Si~e VISit       2011 HSGP                           $11,751.36
           in progress
                                                                     2012 HSGP                            $6,694.00
                                                                     2010 HSGP                           S50,969.Sl




www.oig.dhs.gov                                                          26                                             OIG-14-61

                                       OFFICE OF INSPECTOR GENERAL
                                                Department of Homeland Security



                                                                 2011 HSGP        $38,484.64
             9/26/13       Shoshone County         Site Visit
                                                                 2012 HSGP        $21.212.03
                                                                 2012 EMPG        $14,168.06
                                                                 2012 HMEP        $11,556.36
                                                                 2010 HSGP        $30,000.00
             10/16/13     RRT 6 Pocatello FD       Site Visit
                                                                 2011 HSGP        $30.000.00
                                                                 2012 HSGP        $18,000.00
                                                                 2010 HSGP        $15,000.00
            10/16/ 13     ITRT 3A Pocatello FD     Site Visit    2011 HSGP        $15,000.00
                                                                 2012 HSGP         $8,000.00
                                                                 2012 HMEP        $11,556.35
                                                                 2010 HSGP         $30,000.00
            10/17/13      RRT 7 Idaho Falls FD     Site Visit
                                                                 20ll HSGP         $30,000.00
                                                                 2012 HSGP         $18,000.00
                                                                 2010 HSGP         $15,000.00
            10/17/13     ITRT 38 Idaho Falls FD    Site Visit    2011 HSGP         $15,000.00
                                                                 2012 HSGP          $6,000.00
                                                                 2010 HSGP         $30,000.00
            10/ 16/H      RBS 7 Idaho Falls PO     SiteVis1t     2011 HSGP         $30,000.00
                                                                 2012 HSGP         $16,00000
                                                                 2010 HSGP         $30,000.00
            10/ 15/ 13    RBS 5 Twin Falls PO      Site Visit    lOl l HSGP       $30,000.00
                                                                 2012 HSGP        $16,000.00
                                                                 2010 HSGP         $30,00000
             9/23/ 13    ART 1 Kootenai Co Fire    Site Vi sit   2011 HSGP         $30,000.00
                                                                 2012 HSGP         $18,000.00
                                                                 2010 HSGP         $56,116.00
             9/26/13       ICSAR 1 CDA Fire        Site Visit    2011 HSGP        $30,000.00
                                                                 2012 HSGP        $16,000.00




www.oig.dhs.gov                                                    27                           OIG-14-61

                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


                                    2014 Subgrantee Monitoring Schedule

             201.      Subsrantee           Type of Visit    Grants Monitored   Award Amounts       Completed
                                                                 2011 HSGP            $25,020.62
                                                                 2012 HSGP            $14,044.89
              July     Custer County          Site Visit
                                                                 2013 HSGP            $18.576.12
                                                                 2013 EMPG             $9, 168.05
                                                                 2011 HSGP            $30.741.66
                                                                 2012 HSGP            $17,168.21
              July     Lemh1 County           Site Visit
                                                                 201311SGP            $24,453.16
                                                                 2013 EMPG            $11,081.52
                                                                 2011 H5GP            $19,591.40
                                                                 2012 HSGP            $12,016.48
              July     Clark County           51teVisit          2013 H5GP            $14,659.49
                                                                 2013 EMPG             $7,235.03
                                                                 2012 POM             $48,500.00
                                                                 2011 HSGP            539,249.47
                                                                 2012 HSGP            $21,603.94
             April    Fremont County          Site Visit
                                                                 2013 H5GP            528,334.90
                                                                 2013 EMPG            $13,984.39
                                                                 2011 H5GP            $27,614.97
                                                                 2012 H5GP            $15,478.49
             April      Bear Like             s~e   Visit
                                                                 2013 H5GP            $20,359.08
                                                                 7013 FMPG            $10,048.01
                                                                 2011115GP            $36,235.60
                                                                 2012 HSG P           $16,305.30
             April       caribou              Site V1sit
                                                                 2013 HSGP            $21,354.65
                                                                 2013EMPG             $ 10.539.36
                                                                 2011 HSGP            $38,51831
                                                                 2012 HSGP            $71,365.01
             Apr il      Franklin             Site VISit
                                                                 2013 HSGP            $28,141.44
                                                                 2013EMPG             $13,888.91
                                                                 2011 HSGP            $24,889.14
                                                                 2012 HSGP            $13,943.47
             Apri l      Oneida               Site Visit
                                                                 2013 HSGP            $18,444.89
                                                                 2013 EMPG             $9,103.28
                                                                 2011 HSGP            $30,550.86
                                                                 201211SGP            $16,995.45
             April        Pow~Jr              51teVis~
                                                                 2013 HSGP            $22,475.79
                                                                 2013 EMPG            $11,092.68
                                                                 2011 HSGP            $24,392.07
                                                                 2012 HSGP            $19,738.92
             March    Adams County            Site Visit         2013 HSGP            $18,105.49
                                                                 2011 PDM             $51,000.00
                                                                 2013 EMPG             58,935.77
                                                                 2011 HSGP            $29,285.75
                                                                 2012 HSGP            $16,358.58
             April    Boise County            Site Visit
                                                                 2013 HSGP            $21,408.95
                                                                 2013 EMPG            $10,566. 16
                                                                 2011 HSGP            $54,291.27




www.oig.dhs.gov                                             28                                                  OIG-14-61

                                  OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security



                                                                 2012 HSGP     $32,117.66
             M3rch     Payette County         Si~Vi>it
                                                                 2013 H5GP     $39, /88.35
                                                                 2013 EMPG     $19,390.35
                                                                 201l HSGP     $33,829.87
                                                                 2012 11SGP    $18,604.3S
              May      Vahey County           Site \li>it
                                                                 2013HSGP      $24.474.83
                                                                 2013 EMPG     $12,079.29
                                                                 201lHSGP      $34.368 63
                                                                 2012 HSGP     $19,134.67
              May    Washington County        S•te Visit
                                                                 2013 HSGP     $2S,IOl.S8
                                                                 2013 [MPG     $12,388.62
                                                                 2011 HSGP     $32,904.69
                                                                 2012 HSGP     $18,235.67
              May     6enewah CountY          Stte Visit         2013 HSGP     $23,990.63
                                                                 2013 EMPG     $11,840.32
                                                                 201l PDM     $428,909.56
                                                                 2011 HSGP     $35,609.68
                                                                 2012 HSGP     $19,606.S3
                                                                 2013 HSGP     $25,903.69
             M ~y    Boundary Countv          Site Visit
                                                                 2013 EMPG     $12,784.49
                                                                 2012 PDM      $49,100.00
                                                                 2012 OPSG     $48,763.00
                                                                 2011 HSGP     Sll,751.36
             May        CDA Tnbe              Site Visit         2012 HSGP      $6,694.00
                                                                 2013 HSGP     $12,300.00
                                                                 2011 HSGP    $240,082.50
                                                                 2012 HSGP    $131,619.11
             May      Kootenai CountY         Site Visit
                                                                 2013 HSGP    $174,727.86
                                                                 2013 EMPG     586,235.07
                                                                 2011 HSG P    $10,000.00
             May     RBS I Spokane PO         Site Visit         201] HSGP      ss,ooo.oo
                                                                 2013 HSGP      $5,000.00
                                                                 2011 HSGP     $32,413.50
                                                                 2012 IISGP    $17,799.92
             April      Oearwater             Site Visit
                                                                 2013 HSGP     $23,39•.42
                                                                 2013 EMPG     $11,546.07
                                                                 2011 HSGP     S44,737.n
                                                                 2012 HSGP     $/4,455.67
             May          idaho               Site ViSit
                                                                 2013 HSGP     $32,125.96
                                                                 2013 EMPG     $1~,8~5.4 2

                                                                 2011 HSGP     $79,218.70
                                                                 2012 HSGP     $42,726.31
             May          Latah               Site Visit
                                                                 2013 HSGP     $56,874.74
                                                                 2013 EMPG     $11,081.52
                                                                 201 211SGP    $13,605.70
             May          Lewis               Site Visit         2013 HSGP     $18,076.08
                                                                 2013 [MPG      $8,921.26
                                                                 201l HSGP    $82,539.75
                                                                 2012 H5GP    $44,306.87
             May        Nez Perce             Site Vi>it
                                                                 2013 HSGP    $58,398.63
                                                                 2013 EMPG    $28,822.02
                                                                 2011 HSGP    $18, 180.95




www.oig.dhs.gov                                             29                               OIG-14-61

                                   OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security



                                                                     2012 HSGP      $9,953.73
              May       Nez Perce Tribe           Site Visit
                                                                     2013 ~SGP     $17,000.00
                                                                     2013 EIIIPG    $4,502.75
                                                                     2011 HSGP     $713,260.15
                                                                     2012 HSGP     $382,873.45
             March           Ada                  Site Visit
                                                                     20HHSGP       $~76,455.75
                                                                     2013 EMPG     $235,149.65
                                                                     2011 HSGP      $21,430.24
                                                                     2012 HSGP      SU.l78.78
             March          camas                 Site VIsit
                                                                     2013 HSGP      $14,894.83
                                                                     2013 EMPG       $7,351.17
                                                                     2011 HSGP     $346,018.04
                                                                     2012 HSGP     $188,911.49
             March          canyon                Site VIsit
                                                                     2013 HSGP     $233,025.97
                                                                     2013 EMPG     Sn~.U07.48

                                                                     2011 HSGP      $49,254.62
                                                                     2012 HSGP      $26,591.34
              May            Gem                  S1teV1sit
                                                                     2013 HSGP      $32,538.89
                                                                     2013 EMPG      $16,059.22
                                                                     20111 15GP     $54,185.26
                                                                     2012 HSGP      $29,827 94
             March         Mnodoka                Site Visit
                                                                     2013 HSGP      $36,344.65
                                                                     2013 EMPG      $17,937.52
                                                                     2011 HSGP     $156,053.98
                                                                     2012 HSGP      $83,477.45
              May         Twin Falls              Site VIsit
                                                                     2013 HSGP     $102.592.56
                                                                     2013 EMPG      $50,633.46
                                                                     2011 HSGP      $30,000.00
              May     RRT 2 Lewiston Fire         Site Vosit         2012 HSGP      $18,000.00
                                                                     2013 HSGP      $20,000.00
                                                                     2011 HSGP      $30,000.00
              July    RRT 3 Caldwell Fire         Site Vis1t         2012 HSGP      $18,000.00
                                                                     2013 HSGP      $20,000.00
                                                                     2011 HSGP      $30,000.00
              J uly    RRT 4 Boise Fire           Site VIs it        2012 HSGP      $18,000.00
                                                                     2013 HSG P     $20,000.00
                                                                     2011 HSGP      $30,000.00
              July     RBS 3 Nampa PO             Site Visit         2012 HSGP     S 16,000.00
                                                                     2013 HSGP     $ 16,000.00
                                                                     2011 HSGP      $30,000.00
             July       RBS 4 Boise PO            Site Visit         2012 HSGP     $16,000.00
                                                                     2013 HSGP     $16,000.00
                                                                     2011HSGP       $30,000.00
              July     ITRT 2 Boose Fire          SoteVosit          2012 HSGP     $16,000.00
                                                                     2013 HSGP     $ 16,000.00




www.oig.dhs.gov                                                 30                               OIG-14-61

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Appendix D
   Homeland Security Grant Program Overview
   State Homeland Security Program
   The State Homeland Security Program supports the implementation of state homeland
   security strategies to address the identified planning, organization, equipment, training,
   and exercise needs to prevent, protect against, mitigate, respond to, and recover from
   acts of terrorism and other catastrophic events.

   Urban Areas Security Initiative
   The Urban Areas Security Initiative funds address the unique planning, organization,
   equipment, training, and exercise needs of high-threat, high-density urban areas, and
   assists them in building an enhanced and sustainable capacity to prevent, protect
   against, mitigate, respond to, and recover from acts of terrorism.

   Operation Stonegarden
   Operation Stonegarden funds are intended to enhance cooperation and coordination
   among local, tribal, territorial, state, and Federal law enforcement agencies in a joint
   mission to secure the United States borders along routes of ingress from international
   borders to include travel corridors in states bordering Mexico and Canada, as well as
   states and territories with international water borders.

   Metropolitan Medical Response System1
   The Metropolitan Medical Response System supports the integration of emergency
   management, health, and medical systems into a coordinated response to mass casualty
   incidents caused by any hazard. Successful Metropolitan Medical Response System
   grantees reduce the consequences of a mass casualty incident during the initial period
   of a response by having augmented existing local operational response systems before
   an incident occurs.

   Citizen Corps
   The Citizen Corps’ mission is to bring community and government leaders together to
   coordinate the involvement of community members and organizations in emergency
   preparedness, planning, mitigation, response, and recovery.



   1
    As of the start of FY 2012, the Metropolitan Medical Response System and Citizen Corps are no longer
   funded as discrete grant programs.

www.oig.dhs.gov                                      31                                              OIG-14-61

                     OFFICE OF INSPECTOR GENERAL
                        Department of Homeland Security


   Appendix E
   Idaho Area Field Office Regions




     Source:fIBHS




www.oig.dhs.gov                      32                   OIG-14-61
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix F
   Major Contributors to This Report
   Donald Bumgardner, Director
   J. Eric Barnett, Audit Manager
   Pamela Brown, Auditor-in-Charge
   Andrew Herman, Auditor
   Erica Stern, Program Analyst
   Kelly Herberger, Communications Analyst
   Katrina Bynes, Independent Reference Reviewer




www.oig.dhs.gov                            33                   OIG-14-61

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix G
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   Federal Emergency Management Agency
   Administrator
   Assistant Administrator, Grant Programs Directorate
   Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget
   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress
   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  34                        OIG-14-61

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
